              --    --    - ---
                                                                                                 I




                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORhllVDrn




                  w e received an allegation fiom two CO-PIS' of an award2that a companyf had (1) committed
          intellectual theft and (2) misappropriated grant funds.

                The company was subcontracted to develop a video game under the award. The Co-PIS
         alleged that the company had stolen the intellectual property of one of the Co-PISw h it ~used an
         animation technique called cel-shading in another video-game project, after having i>reviously
         refused to accept the Co-PI'S suggestion to use it in the award project's video game. ow ever,  cel-
         shading has been used in various other video games, and the Co-PI admitted that he himself obtained
         the idea fiom the Charles Schwab commercials that employ a visually similar technique called
         rotoscoping. Therefore, the company's use of cel-shading in another video game is not intellectual


                 In addition, the Co-PIS alleged that the company spent the $50,000 that it received for the
         award project to h t develop a video game for a different project (for which they subsequently
         obtained significant additional funding), instead of using the money to complete work o i the award
         project video game. The Co-PISbelieved that some of the company's funding for the other project
         was then used to do work on the award project. We obtained financial documentatiob fiom the
         company, which detailed how it spent the $50,000. The documentation included detail& invoices
         fiom subcontractors and detailed descriptions of work completed by the owners of the company,
         which indicates that the company did spend the award funds on developing the award project video
         game. In fact, the documentation indicates that the company has expended more than $56,000, but
         the company was only paid $50,000. The company has agreed to complete any additional work for
         fiee. Since we have no basis to doubt the veracity of the documentationprovided by the company to
         establish legitimate use of the funds, we are taking no further action. '

                    Accordingly, this case is closed,




NSF OIG Form 2 (1 1/02)
